Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MEDICARE PART D SPONSORS: 

  ESTIMATED RECONCILIATION 

      AMOUNTS FOR 2006 





                    Daniel R. Levinson

                     Inspector General 


                      October 2007

                     OEI-02-07-00460

               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
  Δ         E X E C U T I V E                                   S U M M A R Y


                        OBJECTIVE
                        To assess the estimated reconciliation amounts that Part D sponsors
                        will owe to or receive from Medicare for 2006.


                        BACKGROUND
                        The Medicare prescription drug program, known as Medicare Part D,
                        provides an optional drug benefit to Medicare beneficiaries. The
                        Centers for Medicare & Medicaid Services (CMS) contracts with private
                        insurance companies, known as Part D sponsors, to provide prescription
                        drug coverage for beneficiaries who choose to enroll in the program.
                        During 2006, the first full year of the benefit, expenditures totaled more
                        than $47 billion.

                        CMS makes monthly prospective payments to sponsors for providing
                        prescription drug coverage to Medicare beneficiaries. These payments
                        are based on estimates that sponsors provide in their approved bids
                        prior to the beginning of the plan year. CMS makes prospective
                        payments to sponsors for three subsidies based on sponsors’ approved
                        bids. These subsidies are: (1) the direct subsidy which, together with
                        beneficiary premiums, is designed to cover the sponsor’s cost of
                        providing the benefit; (2) the reinsurance subsidy, which covers the
                        Federal Government’s share of drug costs for beneficiaries who have
                        reached catastrophic coverage; and (3) the low-income cost-sharing
                        subsidy, which covers the Federal Government’s portion of the
                        cost-sharing payments for certain low-income beneficiaries.

                        After the close of the plan year, CMS must reconcile these prospective
                        payments with sponsors’ actual costs to determine whether sponsors
                        owe money to Medicare or Medicare owes money to sponsors. In
                        addition, CMS must determine whether risk-sharing payments are
                        required. Risk sharing requires the Federal Government to share in
                        sponsors’ unexpected profits and losses. The proportion of profits that
                        sponsors must share with Medicare and the proportion of losses that
                        sponsors are allowed to pass on to Medicare are based on risk corridors
                        mandated by the Medicare Prescription Drug, Improvement, and
                        Modernization Act of 2003 (MMA).

                        This study assesses the estimated reconciliation amounts that Part D
                        sponsors will owe to or receive from Medicare for 2006. It is based on
                        preliminary estimates from CMS for all sponsors. We also collected and
                        reviewed preliminary estimates from 16 sponsors with high

OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   i
E X E C U T I V E                       S U           M M A R Y


                   enrollments. We did not independently verify these estimates. The
                   actual reconciliation amounts were not available at the time of our
                   review.


                   FINDINGS
                   According to preliminary estimates, Part D sponsors owe Medicare
                   a net total of $4.4 billion for 2006. According to CMS’s estimates of
                   reconciliation amounts, Part D sponsors owe a net total of $4.4 billion
                   for 2006. Eighty percent of sponsors owe money to Medicare, whereas
                   20 percent of sponsors will receive money from Medicare for 2006.
                   The majority of the funds owed are profits that sponsors must repay
                   to Medicare as a result of risk-sharing requirements. Almost
                   two-thirds of the net total amount that sponsors owe results from
                   risk-sharing requirements, about one-third is for the reinsurance
                   subsidy, and a small amount is for the low-income cost-sharing subsidy.
                   Sponsors that owe Medicare as a result of risk-sharing requirements
                   overestimated the cost of providing the benefit in their bids. As a result,
                   the prospective payments that these sponsors received from Medicare
                   plus the beneficiary premiums were significantly greater than their
                   costs.
                   CMS has no mechanisms to collect funds or to adjust prospective
                   payments prior to reconciliation; therefore, sponsors have had the
                   use of these funds for a significant length of time. CMS will not
                   collect any funds from sponsors until it has completed reconciliation for
                   2006, which is scheduled to occur more than 9 months after the 2006
                   plan year has ended. According to CMS officials, there is no mechanism
                   currently in place to collect the funds owed by sponsors prior to the
                   completion of reconciliation. There is also no mechanism in place to
                   identify situations in which prospective payments differ significantly
                   from sponsors’ actual costs or to adjust prospective payments
                   accordingly to avoid large discrepancies at the end of the year. These
                   circumstances have allowed sponsors to have the use of billions of
                   dollars for a significant length of time.


                   RECOMMENDATIONS
                   These findings highlight the importance of ensuring the accuracy of
                   Part D sponsors’ bids and of aligning prospective payments with
                   sponsors’ actual costs. OIG is conducting work on sponsors’ bids and on


 OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   ii
E X E C U T I V E                       S U           M M A R Y


                   CMS’s oversight of the bid process. In addition, we recommend that
                   CMS take the following actions:
                   Ensure that sponsors’ bids accurately reflect the cost of providing
                   the benefit to Medicare beneficiaries. CMS should ensure that
                   sponsors’ bids more accurately reflect their costs of providing the benefit.
                   In light of the significant funds owed to Medicare for 2006, CMS should
                   ensure that available data from the 2006, 2007, and any future plan
                   years are incorporated in the subsequent bids. CMS should also take
                   data from prior years into account when reviewing and approving bids.
                   Consider implementing an interim reconciliation process to reduce
                   the amounts owed to Medicare. CMS could consider requesting that
                   sponsors voluntarily submit preliminary data and use this information
                   to identify significant amounts potentially owed to or from Medicare.
                   For sponsors that owe Medicare, CMS could request that they
                   voluntarily make interim settlements. CMS could also make interim
                   payments to sponsors that are owed money from Medicare.
                   Alternatively, CMS could consider undertaking statutory or regulatory
                   changes necessary to implement a mandatory interim reconciliation
                   process.
                   Better align monthly prospective payments with sponsors’ actual
                   costs. CMS should modify the Part D contracts to request, or seek
                   authority to require, that sponsors prepare quarterly estimates of funds
                   owed to or from Medicare. CMS could use these estimates as the basis for
                   adjusting subsequent prospective payments. If appropriate, CMS could
                   undertake statutory or regulatory changes necessary to make
                   adjustments to the prospective payments. In addition, CMS should
                   determine whether different methods of calculating monthly payment
                   amounts would better align prospective payments with actual costs.
                   Consider seeking legislative changes to delay the adjustments to
                   the risk corridors as specified by the MMA. The MMA requires that
                   CMS widen the risk corridors and change the risk-sharing percentages
                   beginning in 2008. If sponsors have large profits in 2008 and future
                   years, these changes will decrease the Federal Government’s share of
                   the sponsors’ profits and increase the amount that sponsors retain.
                   These changes will also increase plan sponsors’ exposure to unexpected
                   losses, because they will reduce sponsors’ ability to shift the burden of
                   unexpected losses to the Government. We recommend that CMS review
                   available data and, if appropriate, work with Congress to delay the
                   statutory changes to the risk corridors until sponsors and CMS have

 OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   iii
E   X   E C     U T   I     V      E           S      U M           M       A      R Y


                          more experience with the Part D benefit and have implemented
                          mechanisms that ensure that bids and prospective payments are more
                          closely aligned with sponsors’ Part D costs.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          In its comments on the draft report, CMS concurred with the
                          recommendation that the data collected from the 2006 and subsequent
                          plan years be used in the review of future bid submissions. CMS also
                          stated that it has the authority to change payment methodologies for
                          the low-income cost-sharing and reinsurance subsidies and that it is
                          carefully examining possible options.

                          CMS did not concur with two of our recommendations. In response to
                          the recommendation that CMS consider conducting an interim
                          reconciliation process, CMS stated that it believes bidding accuracy will
                          improve in coming years, thus eliminating this as an issue. Based on its
                          interpretation of the statute, CMS also stated that there is no legal
                          authority for an interim reconciliation of risk-sharing payments.
                          Finally, in response to our recommendation that CMS consider seeking
                          legislative changes to delay the adjustments to the risk corridors, CMS
                          responded that it is only now able to analyze a full set of bidding and
                          first-year utilization data. As a result, CMS stated that it would be
                          premature to make recommendations to Congress for statutory changes
                          before having a more complete analytic picture of whether the
                          Government would benefit or be harmed by a change in the risk
                          corridors.
                          We continue to recommend that CMS consider implementing an interim
                          reconciliation process and consider seeking legislative changes to delay
                          the adjustments to the risk corridors. CMS could request that sponsors
                          make interim reconciliation settlements on a voluntary basis, when
                          appropriate. Alternatively, CMS could consider pursuing statutory or
                          regulatory changes necessary to implement a mandatory interim
                          reconciliation process. Also, because only limited data are currently
                          available, as CMS notes in its comments, there remains a significant
                          risk that plans will owe large sums of money back to Medicare for 2008
                          and beyond. As such, it may be prudent to delay changes to the risk
                          corridors until the sponsors and CMS have more experience with the
                          Part D benefit and have implemented mechanisms, such as those we



    OEI-02-07-00460       M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   iv
E X E C U T I V E                       S U           M M A R Y


                   have recommended, to ensure that bids and prospective payments are
                   more closely aligned with sponsors’ costs.




 OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   v
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                   Part D sponsors owe a net total of $4.4 billion . . . . . . . . . . . . . . . . 9 


                   Majority of funds owed are the result of risk sharing . . . . . . . . . . 10 


                   No mechanisms are in place to collect funds prior to 

                   reconciliation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency Comments and Office of Inspector General Response . . . 15 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                   Appendix A: 2006 Standard Benefit . . . . . . . . . . . . . . . . . . . . . . . 18 


                   Appendix B: Risk Corridors for 2008 to 2011 . . . . . . . . . . . . . . . . 19 


                   Appendix C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess the estimated reconciliation amounts that Part D sponsors
                  will owe to or receive from Medicare for 2006.


                  BACKGROUND
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional drug benefit to Medicare beneficiaries.1 The
                  Centers for Medicare & Medicaid Services (CMS) contracts with private
                  insurance companies, known as Part D sponsors, to provide prescription
                  drug coverage for beneficiaries who choose to enroll in the program.
                  During 2006, the first full year of the benefit, Medicare Part D
                  expenditures totaled more than $47 billion.2
                  CMS makes monthly prospective payments to sponsors for providing
                  prescription drug coverage to Medicare beneficiaries. These payments
                  are based on estimates that sponsors provide in their approved bids
                  prior to the beginning of the plan year.3 After the close of the plan year,
                  CMS must reconcile these payments with the sponsors’ actual costs to
                  determine whether sponsors owe money to Medicare or Medicare owes
                  money to sponsors.

                  In a preliminary review of several sponsors’ publicly available
                  Form 10-K filings with the Securities and Exchange Commission, we
                  found that several sponsors reported owing significant amounts of
                  money to Medicare for the 2006 plan year. We alerted CMS to this
                  issue in July 2007. This study assesses the total estimated amount that
                  all Part D sponsors will owe to or receive from Medicare for 2006. The
                  actual reconciliation amounts were not available at the time of our
                  review. CMS issued the actual amounts on October 6, 2007. The
                  estimates in this report are similar to the actual amounts.




                      1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. No. 108-173.
                      2 “2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                  Federal Supplementary Medical Insurance Trust Funds,” p. 5. Available online at
                  http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2007.pdf.
                  Accessed July 24, 2007.
                      3 A plan year runs from January 1 to December 31 of the calendar year.




OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   1
I N T R O D        U C T             I O N


                    The Part D Benefit
                    CMS contracts with sponsors to provide the Medicare Part D benefit.
                    These sponsors may offer a stand-alone prescription drug plan (PDP) or
                    they can offer prescription drug coverage as a part of a managed care
                    plan, known as a Medicare Advantage Prescription Drug Plan (MA-PD).
                    In 2006, 224 sponsors offered a total of 3,426 plans.

                    Part D sponsors are required by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 (MMA) to offer, at a
                    minimum, a basic prescription drug benefit that is either the standard
                    prescription drug benefit (described below) or is “actuarially equivalent”
                    to the standard benefit.4 Most beneficiaries are responsible for certain
                    costs, which may include a monthly premium, an annual deductible,
                    and coinsurance. However, certain low-income beneficiaries are eligible
                    to receive assistance to pay some or all of these costs.

                    In 2006, the standard drug benefit had a deductible of $250.5 In the
                    initial phase of the Part D benefit, after the deductible is paid,
                    beneficiaries contribute 25-percent coinsurance toward their drug costs
                    and the plan pays the remaining 75 percent until combined beneficiary
                    and plan payments reach a total of $2,250. After the $2,250 limit is
                    reached, beneficiaries enter the coverage gap phase of the benefit, in
                    which they are responsible for 100 percent of their drug costs. The
                    catastrophic coverage phase begins when a beneficiary’s out-of-pocket
                    costs reach $3,600. This amount includes a beneficiary’s deductible and
                    coinsurance payments. Once beneficiaries reach $3,600 in out-of-pocket
                    costs, they contribute approximately 5 percent coinsurance toward their
                    drug costs. Of the remaining 95 percent of drug costs, the Part D
                    sponsors are responsible for approximately 15 percent and Medicare
                    pays 80 percent. The amount paid by Medicare is also referred to as the
                    reinsurance subsidy. See Appendix A.
                    Plan Bids
                    Before the beginning of the plan year, sponsors are required to submit a
                    bid for each plan they intend to offer.6 Each sponsor submits a
                    “standardized bid,” which is an estimate of the average monthly
                    revenue the sponsor needs to provide the basic benefit per beneficiary.


                        4 Actuarially equivalent means that the plan’s benefits must be of a dollar value
                    equivalent to that of the standard benefit.
                        5 42 CFR § 423.104.
                        6 42 CFR § 423.265.




 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   2
I N T R O D        U C T             I O N


                    This bid is based on the sponsor’s anticipated drug costs, as well as the
                    sponsor’s administrative costs and expected profit. Sponsors must also
                    submit an estimate for reinsurance and an estimate for low-income cost
                    sharing. CMS reviews this information and determines whether to
                    approve the final bid.7 CMS then calculates the national average
                    monthly bid from all plans’ standardized bids.

                    CMS uses the national average monthly bid and the plan’s standardized
                    bid to calculate each plan’s beneficiary premium. First, CMS sets the
                    base beneficiary premium, which is a percentage of the national average
                    monthly bid.8 If a plan’s bid is higher than the national average
                    monthly bid, then the beneficiary’s premium will be higher than the
                    base premium by the amount of the difference. If a plan’s bid is lower
                    than the national average monthly bid, then the beneficiary’s premium
                    will be lower than the base premium by the amount of the difference.
                    For example, if the national average monthly bid is equal to $100 and
                    the base beneficiary premium is $26, then a plan with a bid of $90
                    ($10 less than the national average monthly bid) would have a
                    beneficiary premium of $16.

                    The 2006 plan year was the first year of the benefit. Sponsors
                    developed their 2006 bids with limited information about drug
                    utilization and drug costs on which to base their bids. Sponsors also
                    lacked much of the same information when they developed their 2007
                    bids.9 Plan year 2008 is the first year in which the bids will be based on
                    complete Part D utilization data from 2006.
                    Subsidy Payments
                    Throughout the year, CMS makes prospective payments to sponsors for
                    three subsidies based on sponsors’ approved bids. These subsidies are:
                    (1) the direct subsidy, (2) the reinsurance subsidy, and
                    (3) the low-income cost-sharing subsidy.10
                    Direct subsidy. The direct subsidy, together with the beneficiary
                    premiums, is designed to cover the sponsor’s cost of providing the

                        7 For the purposes of this report, we refer to the approved bids as bids.
                        8 Section 1860D-13(3) of the Social Security Act mandates how the base beneficiary
                    premium is calculated. In practice, it is equal to at least 25.5 percent of the national
                    average monthly bid.
                       9 Sponsors were required to submit bids for 2007 on June 5, 2006. Because enrollment
                    did not close until May 15, 2006, sponsors had limited data about beneficiaries’ drug
                    utilization patterns.
                        10 42 CFR § 423.315.




 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   3
I N T R O D        U C T             I O N


                    benefit to each beneficiary. The direct subsidy is equal to the plan’s
                    standardized bid, adjusted for the health status of the beneficiary,11
                    minus the beneficiary premiums. CMS makes monthly prospective
                    direct subsidy payments to sponsors for each beneficiary enrolled in the
                    plan.

                    Reinsurance subsidy. The reinsurance subsidy covers the Federal
                    Government’s share of drug costs for beneficiaries who have reached
                    catastrophic coverage. CMS makes monthly prospective payments to
                    sponsors based on the reinsurance estimate in the sponsor’s bid,
                    multiplied by the total number of beneficiaries enrolled in the plan.
                    Low-income cost-sharing subsidy. The low-income cost-sharing subsidy
                    covers the Federal Government’s portion of the cost-sharing payments
                    for certain low-income beneficiaries. CMS makes monthly prospective
                    payments to sponsors based on the low-income estimate in the sponsor’s
                    bid, multiplied by the total number of low-income beneficiaries enrolled
                    in the plan.
                    Reconciliation
                    After the close of the plan year, CMS reconciles these prospective
                    payments with the actual costs incurred by the sponsors.12 CMS
                    calculates a reconciliation amount for the reinsurance subsidy, for the
                    low-income cost-sharing subsidy, and for risk sharing (discussed on the
                    next page). This calculation determines the total reconciliation amount
                    that each sponsor will owe to or receive from Medicare for the plan year.

                    CMS uses data submitted by the sponsors to complete reconciliation.
                    Sponsors are required to submit prescription drug event (PDE) records
                    for all covered drugs that are dispensed to enrollees throughout the
                    year. These records include cost data for all Part D-covered drugs.
                    CMS requires that sponsors submit final PDE data within 6 months of
                    the end of the plan year.13 Sponsors are also required to report direct
                    and indirect remuneration. This includes any type of remuneration,
                    such as drug discounts or drug rebates, that affects the actual costs of
                    the drugs paid for by sponsors.



                       11 Adjustments are made according to the health status of the beneficiary. CMS assigns
                    a risk score to each enrolled beneficiary based on the individual’s health status and
                    demographic characteristics.
                        12 42 CFR § 423.343.
                        13 42 CFR § 423.343(c)(1).




 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   4
I N T R O D        U C T             I O N


                    As part of reconciliation, CMS finalizes the direct subsidy payments
                    based on updated information about the health status of enrolled
                    beneficiaries. CMS also reconciles the reinsurance subsidy payments
                    and the low-income cost-sharing subsidy payments with the sponsor’s
                    allowable costs.14 As a last step, CMS uses the finalized direct subsidy
                    payments to determine whether risk-sharing payments are required.
                    Risk Sharing
                    The purpose of risk sharing is to minimize unexpected profits or losses
                    to sponsors. Risk-sharing payments are based on statutorily
                    determined risk corridors.15 The MMA established these risk corridors
                    to allow the Federal Government and sponsors to share the profits and
                    losses associated with providing the benefit.

                    To determine whether risk-sharing payments are required, CMS
                    compares the plan’s “target amount” to the plan’s allowable costs. The
                    target amount is the sum of the prospective direct subsidy payments
                    and the beneficiary premiums, reduced by administrative costs. The
                    plan’s allowable costs are its Part D drug costs minus direct and indirect
                    remuneration and the reinsurance subsidy. Depending on the
                    difference between the target amount and the plan’s allowable costs,
                    Medicare may owe money to the sponsor or the sponsor may owe money
                    to Medicare.

                    In 2006 and 2007, as shown in Chart 1 on the next page, if a plan’s
                    allowable costs are at least 2.5 percent above or below the target
                    amount, then a portion of these profits or losses are subject to risk
                    sharing. The risk sharing associated with each of the corridors, as
                    mandated by the MMA, is described below:

                           •	      No risk-sharing payments are made if a plan’s allowable costs
                                   are within 2.5 percent above or below its target amount.

                           •	      First risk corridor: If a plan’s allowable costs are between
                                   2.5 percent and 5 percent above its target amount, then sponsors
                                   receive payments from Medicare to cover 75 percent of these




                      14 To determine the allowable costs for reinsurance, CMS excludes administrative costs
                    and subtracts a proportion of sponsors’ direct and indirect remuneration.
                        15 42 U.S.C. § 1395w-115.




 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   5
I N T R O D        U C T             I O N


                                   losses.16 Conversely, if a plan’s allowable costs are between
                                   2.5 percent and 5 percent below its target amount, then the
                                   sponsor owes Medicare 75 percent of these profits.

                           •       Second risk corridor: If a plan’s allowable costs are more than
                                   5 percent above its target amount, then the sponsor receives
                                   payments from Medicare to cover 80 percent of these losses.
                                   Conversely, if a plan’s allowable costs are more than 5 percent
                                   below its target amount, then the sponsor owes Medicare
                                   80 percent of these profits.




                    Beginning in 2008, the risk corridor thresholds will widen and the
                    risk-sharing percentages will change as mandated by the MMA.17 For
                    2008 through 2011, the first risk corridor threshold will increase from
                    2.5 percent to 5 percent of the target amount and the second risk
                    corridor threshold will increase from 5 percent to 10 percent of the
                    target amount. In addition, the risk-sharing percentage for the first


                        16 The MMA specifies that sponsors will receive payments from Medicare to cover
                    90 percent of these losses, rather than 75 percent, if at least 60 percent of PDPs and
                    MA-PDs have allowable costs that are more than the first threshold and such plans
                    represent at least 60 percent of beneficiaries enrolled in any plan.
                    See 42 U.S.C. § 1395w-114.
                        17 42 U.S.C.§ 1395w-115.




 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   6
I N T R O D        U C T             I O N


                    corridor will change from 75 percent to 50 percent. These changes will
                    decrease the percentage of unexpected profits that sponsors will owe to
                    Medicare and increase the percentage of unexpected profits that
                    sponsors will retain. These changes will also decrease the percentage of
                    the sponsors’ losses that they are permitted to shift to Medicare and
                    increase the percentage of losses that sponsors will have to bear. See
                    Appendix B.


                    METHODOLOGY
                    Scope
                    This study assesses the estimated reconciliation amounts that Part D
                    sponsors will owe to or receive from Medicare for 2006. It is based on
                    CMS’s estimates for all sponsors. We also reviewed estimates from
                    16 sponsors with the PDPs or MA-PDs with the highest enrollments.
                    The estimates from CMS and from the sponsors are preliminary. The
                    actual reconciliation amounts were not available at the time of our
                    review.
                    CMS Estimates of Reconciliation Amounts
                    We received and reviewed preliminary estimates from CMS of the
                    amount each sponsor will owe to or receive from Medicare for the 2006
                    plan year. CMS calculated these estimates based on the best data
                    available as of August 2007, which include PDE records updated as of
                    July 31, 2007, and direct and indirect remuneration information
                    updated as of August 14, 2007.

                    We reviewed CMS’s estimates for all 224 sponsors that offered Part D
                    plans in 2006. Specifically, we reviewed the total reconciliation
                    amounts and the amounts for the reinsurance subsidy, the low-income
                    cost-sharing subsidy, and risk sharing.
                    Sponsor Estimates of Reconciliation Amounts

                    We also requested and reviewed estimates from selected large sponsors.
                    We identified the 10 sponsors with the highest PDP enrollments and the
                    10 sponsors with the highest MA-PD enrollments as of July 2006.
                    Three sponsors were in both groups. In July 2007, we requested
                    financial information from these 17 sponsors about their Medicare
                    Part D business. We received complete information from 16 of these
                    sponsors. In total, these 16 sponsors provided the Part D benefit to
                    77 percent of all Medicare beneficiaries enrolled in 2006.



 OEI-02-07-00460    M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   7
I N T R O D        U C T                I O N

                  For each sponsor, we requested and reviewed preliminary estimates of
                  the amount it will owe to or receive from Medicare for the reinsurance
                  subsidy, the low-income cost-sharing subsidy, and risk sharing. If
                  information about each subsidy was not available, we requested and
                  reviewed the total net amount that sponsors expect to owe to or receive
                  from Medicare for 2006. We contacted the sponsors for additional
                  information when we had any questions about the estimates they
                  provided.

                  As a final step, we compared the 16 large sponsors’ estimates to CMS’s
                  estimates to identify any large discrepancies. We did not expect the
                  estimates to match exactly, primarily because the sponsors’ estimates
                  were based on data available at the time of their last update, whereas
                  CMS’s estimates were based on data available as of August 2007. Of
                  the 16 sponsors, 12 provided estimates that were last updated between
                  January and March 2007. Three other sponsors had updated their
                  estimates as of May 2007, and the remaining sponsor had updated its
                  estimates as of July 2007.
                  Limitations

                  The estimates from CMS and from the 16 large sponsors are self-
                  reported. We did not independently verify any of these estimates.
                  Additionally, the estimates from CMS and from the sponsors are
                  preliminary. CMS will base its final reconciliation amounts on updated
                  data; however, CMS staff have informed us that CMS anticipates
                  relatively small changes to these amounts.
                  Standards

                  Our review was conducted in accordance with the “Quality Standards
                  for Inspections” issued by the President’s Council on Integrity and
                  Efficiency and the Executive Council on Integrity and Efficiency.




OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   8
Δ       F I N D I N G S

               According to preliminary estimates,                CMS was scheduled to complete its
                  Part D sponsors owe Medicare a                  reconciliation of payments made to
                                                                  Part D sponsors for the 2006 plan
                   net total of $4.4 billion for 2006
                                                                  year in September 2007. In
                             preparation, CMS developed preliminary estimates of the amounts that
                             sponsors will owe to or receive from Medicare. According to these
                             estimates, Part D sponsors owe a net total of $4.37 billion for 2006.
                             This amount is equal to about $15 per month per enrolled beneficiary.18
                             As shown in Table 1, 80 percent of sponsors (180 of 224) owe money to
                             Medicare for 2006. These sponsors owe an estimated total of
                             $5.19 billion. The remaining 20 percent of sponsors (44 of 224) will
                             receive an estimated total of $816 million from Medicare. The total
                             amount that sponsors owe to Medicare is over six times the total
                             amount that sponsors will receive from Medicare.


    Table 1: Estimated Reconciliation Amounts by Sponsor, 2006

                                                                                                               Number of                              Total
                                                                                                                Sponsors

    Estimated Amount Sponsors Owe Medicare                                                                                 180               $5.19 billion

    Estimated Amount Sponsors Will Receive From Medicare                                                                    44              ($0.82 billion)


       Total Net Amount                                                                                                    224               $4.37 billion


    Source: Office of Inspector General analysis of CMS estimates, August 2007.




                             The estimates from the 16 large sponsors from which we collected data
                             are generally consistent with CMS’s estimates for 2006. These
                             16 sponsors estimate owing a net total of $3.50 billion to Medicare.
                             According to CMS’s estimates, the same 16 sponsors owe a net total of
                             $3.69 billion, a difference of about 5 percent.




                               18 This estimate is based on the total number of enrollees as of July 2006. See CMS’s
                             “Annual Enrollment Report by Plan: Medicare Advantage/Part D Contract and Enrollment
                             Data.” Available online at
                             http://www.cms.hhs.gov/MCRAdvPartDEnrolData/EP/list.asp#TopOfPage.
                             Accessed June 14, 2007.



OEI-02-07-00460              M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006                9
F   I N D I N G               S            




                    The majority of the funds owed are                   Almost two-thirds of the net
     profits that sponsors must repay to Medicare as                     total amount that sponsors
                                                                         owe to Medicare results from
                  a result of risk-sharing requirements
                                                                         risk-sharing requirements.
                             About one-third is for the reinsurance subsidy, and a small amount is
                             for the low-income cost-sharing subsidy. The total amount that
                             sponsors owe Medicare based on risk sharing is over 200 times the total
                             amount that sponsors will receive from Medicare based on risk sharing.
                             See Table 2.


           Table 2: Estimated Reconciliation Amounts by Type of Payment, 2006

                                                                                    Risk Sharing                          Reinsurance              Low-Income
                                                                                                                                    Subsidy       Cost-Sharing
                                                                                                                                                       Subsidy

           Estimated Amount Sponsors Owe to
           Medicare                                                                    $2.75 billion                       $2.14 billion          $1.09 billion


           Estimated Amount Sponsors Will Receive
           From Medicare                                                             ($0.01 billion)                     ($0.55 billion)         ($1.07 billion)


             Total Net Amount                                                          $2.74 billion                       $1.59 billion          $0.02 billion


           Source: Office of Inspector General analysis of CMS estimates, August 2007.




                             Sponsors owe an estimated net total of $2.74 billion as a result of
                             risk-sharing requirements
                             Risk sharing allows the Federal Government and sponsors to share in
                             unexpected profits and losses associated with providing the Part D
                             benefit. According to preliminary estimates, sponsors owe Medicare a
                             total of $2.75 billion, while Medicare owes sponsors a total of
                             $13 million. This results in a net total of $2.74 billion owed to Medicare.

                             Eighty-five percent of sponsors (191 of 224) have profits that trigger risk
                             sharing, requiring them to pay a portion of their profits to Medicare.
                             These sponsors overestimated the cost of providing the benefit in their
                             bids. As a result, the prospective payments that these sponsors received
                             from Medicare plus the beneficiary premiums were significantly greater
                             than their costs. Sponsors’ overestimates of their costs also resulted in
                             higher beneficiary premiums. Beneficiaries do not directly recoup any
                             of the money that they paid in higher premiums.


    OEI-02-07-00460          M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006               10
F   I N D I N G 
S


                      In contrast, 10 percent of sponsors (22 of 224) have losses that trigger
                      risk sharing, requiring Medicare to pay additional money to them.
                      These sponsors underestimated the cost of providing the benefit in their
                      bids. As a result, the prospective payments that these sponsors received
                      from Medicare plus the beneficiary premiums were significantly less
                      than their costs. The remaining 5 percent of sponsors (11 of 224) have
                      minimal gains or losses, so no risk-sharing payments are required.

                      Based on this information, we estimate that the total amount of
                      sponsors’ profits subject to risk sharing is at least $3.4 billion for 2006.19
                      Sponsors will repay $2.75 billion of this amount to Medicare, and
                      sponsors will retain—at a minimum—the remaining $688 million in
                      unexpected profits. Because this is a conservative estimate, sponsors’
                      unexpected profits for 2006 are most likely higher.20
                      In addition, the MMA mandates changes to the risk corridors beginning
                      in 2008. These changes will decrease the proportion of profits and
                      losses that sponsors must share with Medicare. Therefore, if sponsors
                      continue to have unexpectedly high profits, the percentage of these
                      profits that they are required to share with Medicare will decrease.
                      Sponsors owe an estimated net total of $1.59 billion to Medicare for the
                      reinsurance subsidy
                      The reinsurance subsidy covers the Federal Government’s portion of
                      drug costs for beneficiaries who reach catastrophic coverage. According
                      to preliminary estimates, sponsors owe a net total of $1.59 billion to
                      Medicare for the reinsurance subsidy in 2006.

                      Seventy-five percent of sponsors (169 of 224) owe money to Medicare for
                      the reinsurance subsidy. These sponsors overestimated the cost of
                      providing catastrophic coverage in their bids. Consequently, the
                      amount that Medicare paid prospectively was greater than the Federal
                      share of actual reinsurance costs. As a result, these sponsors must
                      refund the difference to Medicare. Conversely, 21 percent of sponsors


                          19 These profits are in addition to the profits that are built into the sponsor’s bid. The
                      profits in the bid are a part of the sponsor’s administrative costs, which are subtracted
                      before risk sharing is calculated.
                         20 This is a conservative estimate because we did not have information about sponsors’
                      target amounts and actual costs. Instead, we assumed that the total amount is subject to
                      the risk corridor that allows sponsors to keep the smallest proportion of profits. This risk
                      corridor requires sponsors to pay CMS 80 percent of the profits and allows sponsors to keep
                      20 percent of the profits. However, in reality, sponsors keep a higher portion of the profits
                      that are within 5 percent of the target amount.



    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   11
 F   I N D I N G        S


                       (48 of 224) underestimated the cost of providing catastrophic coverage
                       in their bids. As a result, these sponsors will receive additional
                       payments from Medicare. For the remaining 3 percent of sponsors
                       (7 of 224), no funds are owed for the reinsurance subsidy.21
                       Sponsors owe an estimated net total of $24 million to Medicare for the
                       low-income cost-sharing subsidy
                       The low-income cost-sharing subsidy payments are made on behalf of
                       certain beneficiaries based on their income and assets. According to
                       preliminary estimates, sponsors owe a net total of $24 million to
                       Medicare for the low-income cost-sharing subsidy for 2006.

                       Sixty-five percent of sponsors (146 of 224) owe money to Medicare for
                       the low-income cost-sharing subsidy. These sponsors overestimated the
                       cost of providing the benefit to low-income beneficiaries in their bids
                       and received prospective payments that were greater than their actual
                       costs. Conversely, 35 percent of sponsors (78 of 224) underestimated the
                       cost of providing the benefit to low-income beneficiaries. These sponsors
                       will receive additional payments from Medicare.


  CMS has no mechanisms to collect funds or to
                                                                 CMS will not collect any funds from
            adjust prospective payments prior to                 sponsors until it has completed
reconciliation; therefore, sponsors have had the                 reconciliation for 2006, which is
              use of these funds for a significant               scheduled to occur more than
                                   length of time                9 months after the 2006 plan year
                                                                 has ended. According to CMS
                       officials, there is no mechanism currently in place to collect the funds owed
                       by sponsors prior to the completion of reconciliation. There is also no
                       mechanism in place to identify situations in which prospective payments
                       differ significantly from sponsors’ actual costs or a mechanism to adjust
                       prospective payments accordingly to avoid large discrepancies at the end
                       of the year. These circumstances have allowed sponsors to have the use of
                       billions of dollars for a significant length of time.

                       There is also no formal mechanism in place to make additional interim
                       payments to sponsors or to adjust prospective payments if large amounts
                       are owed to sponsors. Nevertheless, according to a CMS official, CMS
                       made additional interim payments in 2006 to a few sponsors that reported



                           21 Note that some plans do not receive prospective reinsurance subsidies from CMS.




     OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   12
F   I N D I N G        S


                      they did not receive sufficient funds because their expenses for low-income
                      enrollees exceeded the low-income cost-sharing estimates in their bids.

                      Although CMS does not have mechanisms in place to collect funds or
                      adjust the prospective payments prior to reconciliation, many of the
                      sponsors have estimates of the amounts they will owe to or receive from
                      Medicare available earlier in the calendar year. Four of the sixteen
                      large sponsors that we contacted reported that they calculated
                      estimates for reinsurance, low-income cost sharing, and risk sharing in
                      January 2007. Six other sponsors calculated the estimates by the end of
                      the first quarter of 2007. One sponsor calculated its estimate in April
                      2007. The remaining five sponsors could not provide us with a specific
                      timeframe regarding the availability of estimates.

                      These issues continue to be a concern because sponsors may also owe
                      significant amounts to CMS for the 2007 plan year. For the 2006 plan
                      year, sponsors had limited information about drug utilization and drug
                      costs to develop their bids. Sponsors also lacked much of the same
                      information when they developed their 2007 bids and therefore they
                      may have also overestimated their costs for 2007.22




                          22 Sponsors were required to submit bids for 2007 on June 5, 2006. Because enrollment
                      did not close until May 15, 2007, sponsors had limited data about beneficiaries’ drug
                      utilization patterns.



    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   13
R   E C O        M M E N D A T                         I O N               S
Δ       R E C O M M E N D A T I O N S

                      Preliminary estimates indicate that Part D sponsors owe a net total of
                      $4.4 billion to Medicare for the 2006 plan year, the first year of the
                      Part D benefit. About two-thirds of this amount is profit that sponsors
                      must repay to Medicare as a result of risk-sharing requirements and
                      nearly one-third is based on reconciliation of the reinsurance subsidy.
                      In general, sponsors overestimated the cost of providing the Part D
                      benefit in their bids, causing both unexpected profits that are subject to
                      risk-sharing requirements and higher beneficiary premiums.
                      Additionally, we found that CMS has no mechanisms in place to collect
                      funds owed by sponsors or to adjust prospective payments prior to
                      reconciliation. The lack of such mechanisms has allowed sponsors to
                      have the use of billions of dollars for a significant length of time.

                      These findings highlight the importance of ensuring the accuracy of
                      Part D sponsors’ bids and of aligning prospective payments with
                      sponsors’ actual costs. OIG is conducting work on sponsors’ bids and on
                      CMS’s oversight of the bid process. In addition, we recommend that
                      CMS take the following actions:
                      Ensure That Sponsors’ Bids Accurately Reflect the Cost of Providing the
                      Benefit to Medicare Beneficiaries
                      CMS should ensure that sponsors’ bids more accurately reflect their costs
                      of providing the benefit. In light of the significant funds owed to
                      Medicare for 2006, CMS should ensure that available data from the 2006,
                      2007, and any future plan years are incorporated in the subsequent bids.
                      CMS should also continue to impress upon sponsors that their bids
                      should more accurately reflect the costs of providing the benefit. Finally,
                      CMS should also take data from prior years into account when reviewing
                      and approving bids.
                      Consider Implementing an Interim Reconciliation Process To Reduce the
                      Amounts Owed to Medicare
                      Because of the timing for sponsors to submit bids for 2007 (which
                      occurred in mid-2006), plans may also owe significant amounts to CMS
                      for the 2007 plan year. Therefore, CMS could consider requesting that
                      sponsors voluntarily submit preliminary data and use this information
                      to identify significant amounts potentially owed to or from Medicare.
                      For sponsors that owe Medicare, CMS could request that they
                      voluntarily make interim settlements. CMS could also make interim
                      payments to sponsors that are owed money from Medicare.
                      Alternatively, CMS could consider undertaking statutory or regulatory



    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   14
R   E C O        M M E N D A T                         I O N               S


                      changes necessary to implement a mandatory interim reconciliation
                      process.
                      Better Align Monthly Prospective Payments With Sponsors’ Actual Costs
                      CMS should modify the Part D contracts to request, or seek authority to
                      require, that sponsors prepare quarterly estimates of funds owed to or
                      from Medicare. CMS could use these estimates as the basis for
                      adjusting subsequent prospective payments and thus avoid large
                      differences at the end of the year. If appropriate, CMS could undertake
                      statutory or regulatory changes necessary to make adjustments to the
                      prospective payments. In addition, CMS should also determine whether
                      different methods of calculating monthly payment amounts would better
                      align prospective payments with actual costs.
                      Consider Seeking Legislative Changes To Delay the Adjustments to the Risk
                      Corridors as Specified by the MMA
                      The MMA requires that CMS widen the risk corridors and change the
                      risk-sharing percentages beginning in 2008. If sponsors have large
                      profits in 2008 and future years, these changes will decrease the
                      Federal Government’s share of the sponsors’ profits and increase the
                      amount that sponsors retain. These changes will also increase plan
                      sponsors’ exposure to unexpected losses, because they will reduce
                      sponsors’ ability to shift the burden of unexpected losses to the
                      Government. We recommend that CMS review available data and, if
                      appropriate, work with Congress to delay the statutory changes to the
                      risk corridors until sponsors and CMS have more experience with the
                      Part D benefit and have implemented mechanisms that ensure that bids
                      and prospective payments are more closely aligned with sponsors’
                      Part D costs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its comments on the draft report, CMS concurred with one of our
                      recommendations and stated that it is carefully examining possible
                      options for another recommendation. CMS also stated that it believes
                      that the variance between prospective and reconciled payments will
                      markedly decrease over time as both Part D sponsors and CMS have
                      actual program data available to support program administration.
                      Based on CMS’s comments, we modified the language in the final report
                      to further clarify our recommendations.



    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   15
R   E C O        M M E N D A T                         I O N               S


                      CMS concurred with the recommendation that the data collected from
                      the 2006 and subsequent plan years be used in the review of future bid
                      submissions. CMS also stated that it has the authority to change
                      payment methodologies for the low-income cost-sharing and reinsurance
                      subsidies and that it is carefully examining possible options. CMS
                      further stated its interpretation that the statute does not allow for
                      payment adjustments for risk sharing before the coverage year has
                      ended.

                      CMS did not concur with two of our recommendations. In response to
                      the recommendation that CMS consider conducting an interim
                      reconciliation process, CMS stated that it believes bidding accuracy will
                      improve in coming years, thus eliminating this as an issue. Based on its
                      interpretation of the statute, CMS also stated that there is no legal
                      authority for an interim reconciliation of risk-sharing payments.
                      Finally, in response to our recommendation that CMS consider seeking
                      legislative changes to delay the adjustments to the risk corridors, CMS
                      responded that it is only now able to analyze a full set of bidding and
                      first-year utilization data. As a result, CMS stated that it would be
                      premature to make recommendations to Congress for statutory changes
                      before having a more complete analytic picture of whether the
                      Government would benefit or be harmed by a change in the risk
                      corridors. The full text of CMS’s comments is included in Appendix C.

                      We continue to recommend that CMS consider implementing an interim
                      reconciliation process and consider seeking legislative changes to delay
                      the adjustments to the risk corridors. CMS could request that sponsors
                      make interim reconciliation settlements on a voluntary basis, when
                      appropriate. Alternatively, CMS could consider pursuing statutory or
                      regulatory changes necessary to implement a mandatory interim
                      reconciliation process. Also, because only limited data are currently
                      available, as CMS notes in its comments, there remains a significant
                      risk that plans will owe large sums of money back to Medicare for 2008
                      and beyond. As such, it may be prudent to delay changes to the risk
                      corridors until the sponsors and CMS have more experience with the
                      Part D benefit and have implemented mechanisms, such as those we
                      have recommended, to ensure that bids and prospective payments are
                      more closely aligned with sponsors’ costs.

                      As discussed in our findings, the total amount of unexpected profits
                      sponsors received in 2006 is considerably greater than the amount
                      sponsors will repay to Medicare as a result of risk sharing


    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   16
R   E C O        M M E N D A T                         I O N               S


                      requirements. Under the current risk-sharing requirements, sponsors
                      are permitted to retain at least 20 percent of these unexpected profits,
                      with the remainder owed to Medicare. These profits subject to risk-
                      sharing are in addition to the profits that sponsors anticipate and
                      include in their bids.




    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   17
Δ   A P P E N D I X ~ A




OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006
   18 

Δ      A P P E N D I X ~ B




OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006
   19
A   P   P E N D       I X            ~           A
Δ       A P P E N D I X ~ C A


         Agency Comments




    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006
   20 

A   P   P E N D       I X ~           C           





    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006
   21 

A   P   P E N D       I X ~           C           





    OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006
   22 

Δ   A C K N O W L E D
                    G G
                      E M E N T S

                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the New
                  York regional office, and Meridith Seife, Deputy Regional Inspector
                  General.

                  Miriam Anderson served as the team leader for this study. Staff from
                  the Office of Audit Services who contributed to this report include
                  Jeffrey Cohen and Amanda Fleck. Other principal Office of Evaluation
                  and Inspections staff who contributed to this report include Taryn
                  Eckstein, Michelle McInnis, David Rudich, and Cynthia Thomas.




OEI-02-07-00460   M E D I C A R E PA R T D S P O N S O R S : E S T I M AT E D R E C O N C I L I AT I O N A M O U N T S   FOR   2006   23
